AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN
 GRANT AWARDED TO LEGAL AID OF WESTERN OHIO
                 TOLEDO, OHIO



           U.S. Department of Justice
         Office of the Inspector General
                  Audit Division


          Audit Report GR-50-12-002
                December 2011
   AUDIT OF THE OFFICE ON VIOLENCE AGAINST WOMEN
    GRANT AWARDED TO LEGAL AID OF WESTERN OHIO
                    TOLEDO, OHIO

                        EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General (OIG),
Audit Division has completed an audit of the Legal Aid of Western Ohio,
Incorporated (LAWO), grant awarded by the Office on Violence Against
Women (OVW). The LAWO was awarded $1,589,352 under grant
number 2007-WR-AX-0031. The primary purpose of the grant was to
provide funding for a rural domestic violence assistance project. The
project’s goal was to enhance victim safety for rural areas in cases of
domestic violence, dating violence, sexual assault, stalking, and child sexual
abuse by encouraging collaborative partnerships between criminal justice
agencies, victim service providers, and community organizations who
respond to these crimes. In addition, the project was to support the
provision of services to the victims of such violence and encourage
communities to work in coordination with each other to develop education
and prevention strategies directed toward these issues.

        The LAWO is a non-profit regional law firm that provides legal
assistance in civil matters to help eligible low-income individuals and groups
in western Ohio achieve self reliance, equal justice, and economic
opportunity. The LAWO’s services include legal advice, negotiation,
litigation, and community education. In addition to these services, the
LAWO coordinates special projects that serve victims of domestic violence,
seniors, and migrant farm workers. The LAWO entered into an operating
agreement with its affiliate, the Advocates for Basic Legal Equality,
Incorporated (ABLE), to provide administrative services, including
accounting, finance, human resources, information management, and
resource development.

      The LAWO previously received federal grant funding for a Family
Justice Center (FJC), implementing a collaboration of nearly 60 partners
among six neighboring counties in rural Northwest Ohio. Because of the
success of the prior program, LAWO, along with over 50 agencies, including
representatives from law enforcement, victim service advocates,
prosecutors, judges, probation and parole officers, and community-based
organizations came together as the Ohio Rural Collaborative to apply for the
OVW Rural Domestic Violence, Dating Violence, Sexual Assault, Stalking, and
Child Victimization Assistance Grant to expand the FJC collaboration and to
help victims in additional rural counties.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel costs and indirect costs;
(4) budget management and control; (5) matching costs; (6) property
management; (7) program income; (8) financial status and progress
reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of contractors and subgrantees.
However, we determined that matching costs, property management, and
program income were not applicable to this grant. As shown in Table 1
below, the LAWO was awarded $1,589,352 in grant funds.

              Table 1. Office on Violence Against Women Grant
             Awarded to Legal Aid of Western Ohio, Incorporated
          GRANT              AWARD                 AWARD
          AWARD            START DATE             END DATE          AWARD AMOUNT
  2007-WR-AX-0031         09/01/2007             08/31/2009           $889,352
    Supplement 1         09/01/2007 1            09/30/2011            700,000

                                                       Total:       $1,589,352
Source: Office of Justice Programs

      As of September 30, 2010, the grantee had recorded total grant
expenditures of $1,064,323 and had been reimbursed $1,045,232. We
performed detailed testing of grant transactions, including payroll,
amounting to $573,561.2 During the audit, we examined the LAWO’s
accounting records, supporting documentation, financial status reports,
progress reports, and operating policies and procedures. In addition, we
performed testing to determine if reimbursements claimed for costs under
the grant were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grant. We also


      1
        The supplemental award was received on September 25, 2009, but the project and
budget periods were backdated to the beginning of the grant on September 1, 2007.
      2
          LAWO did not charge all of the program costs to the grant. We reviewed four
program transactions totaling $6,568 that were not charged to the grant. The remaining
transactions tested were either partially or fully charged to the grant.


                                            ii
reviewed progress reports and supporting documentation to assess program
performance and accomplishments. In brief, we found:

     •     Internal control weaknesses related to the timeliness of bank
           reconciliations performed by ABLE and lack of follow-up action
           by ABLE on outstanding checks.

     •     Adjusting journal entries to charge the grant for payroll and
           fringe benefit costs were not posted promptly to the grant
           records by ABLE, and these entries were not reviewed and
           approved by ABLE management on a timely basis.

     •     Because ABLE did not always post the payroll journal entries
           timely, the grantee’s Financial Status Reports did not reconcile to
           the official accounting records. However, ABLE maintained
           summary spreadsheets and documentation that supported
           expenditures identified on the Financial Status Reports.
           Generally, we were able to confirm the accuracy of the FSRs by
           using the summary spreadsheets.

      As a result of the weaknesses identified above, we determined that
LAWO did not adequately monitor its affiliate and relied upon ABLE to
perform duties in accordance with its stated policies and procedures. These
items are discussed in detail in the Findings and Recommendations section
of the report. Our audit objectives, scope, and methodology are discussed
in Appendix I.




                                     iii
                               TABLE OF CONTENTS


INTRODUCTION            ............................................................................... 1
     Background ................................................................................... 2
     Our Audit Approach ........................................................................ 2

FINDINGS AND RECOMMENDATIONS ...................................................... 4
     Operational and Administrative Structure .......................................... 4
     Accounting and Internal Controls ..................................................... 4
     Grant Drawdowns .......................................................................... 8
     Grant Expenditures ........................................................................ 9
     Budget Management and Control ................................................... 10
     Indirect Costs .............................................................................. 11
     Grant Reporting ........................................................................... 12
     Compliance with Grant Requirements ............................................. 13
     Program Performance and Accomplishment ..................................... 14
     Monitoring Subgrantees and Contractors......................................... 14
     Views of Responsible Officials ........................................................ 16
     Recommendations ....................................................................... 16

APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........................ 17

APPENDIX II - AUDITEE RESPONSE ...................................................... 19

APPENDIX III - OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE ......... 23

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
                 SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
                 REPORT.................................................................. 25
                                INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General (OIG),
Audit Division has completed an audit of the Legal Aid of Western Ohio,
Incorporated (LAWO), grant awarded by the Office on Violence Against
Women (OVW). The LAWO was awarded $1,589,352 under grant
number 2007-WR-AX-0031. The primary purpose of the grant was to provide
funding for a rural domestic violence assistance project. The project’s goal
was to enhance victim safety for rural areas in cases of domestic violence,
dating violence, sexual assault, stalking, and child sexual abuse by
encouraging collaborative partnerships between criminal justice agencies,
victim service providers, and community organizations who respond to these
crimes. In addition, the program supports the provision of services to the
victims of such violence and encourages communities to work in coordination
with each other to develop education and prevention strategies directed
toward these issues.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment; (2) drawdowns;
(3) grant expenditures, including personnel costs and indirect costs;
(4) budget management and control; (5) matching costs; (6) property
management; (7) program income; (8) financial status and progress
reports; (9) grant requirements; (10) program performance and
accomplishments; and (11) monitoring of contractors and subgrantees.
However, we determined that matching costs, property management, and
program income were not applicable to this grant. As shown in Table 2
below, the LAWO was awarded $1,589,352 in grant funds.

              Table 2. Office on Violence Against Women Grant
             Awarded to Legal Aid of Western Ohio, Incorporated

      GRANT                  AWARD              AWARD
      AWARD                START DATE          END DATE          AWARD AMOUNT
  2007-WR-AX-0031          09/01/2007          08/31/2009          $889,352
                                       3
    Supplement 1          09/01/2007           09/30/2011             700,000
                                                     Total:        $1,589,352
Source: Office of Justice Programs


      3
        The supplemental award was received on September 25, 2009, but the project and
budget periods were backdated to the beginning of the grant on September 1, 2007.

                                           1
Background

        The LAWO is a non-profit regional law firm with offices in eight Ohio
cities. It provides legal assistance in civil matters to help eligible low-income
individuals and groups in western Ohio achieve self reliance, equal justice,
and economic opportunity. These services include legal advice, negotiation,
litigation, and community education. In addition, the LAWO coordinates
special projects to serve victims of domestic violence, seniors, and migrant
farm workers.

      The LAWO previously received federal grant funding for a Family
Justice Center (FJC), implementing a collaboration of nearly 60 partners
among six neighboring counties in rural Northwest Ohio. Because of the
success of the prior program, LAWO, along with over 50 agencies, including
representatives from law enforcement, victim service advocates,
prosecutors, judges, probation and parole officers, and community-based
organizations came together as the Ohio Rural Collaborative to apply for the
OVW Rural Domestic Violence, Dating Violence, Sexual Assault, Stalking, and
Child Victimization Assistance Grant to expand the FJC collaboration and to
help victims in additional rural counties.

Our Audit Approach

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Program’s (OJP)
Financial Guide, grant award documents, and relevant Office of Management
and Budget (OMB) Circulars/Code of Federal Regulations (CFR). 4 We tested
the LAWO’s:

       •   Accounting and Internal Controls to determine whether the
           grantee had sufficient accounting and internal controls to identify
           and report expenditures and reimbursements.

       •   Grant Drawdowns to determine whether grant drawdowns were
           adequately supported and if the grantee was managing grant
           receipts in accordance with federal requirements.




       4
          According to special condition number one for this award, the grant recipient
agreed to comply with the financial and administrative requirements set forth in the current
edition of the OJP Financial Guide. The OJP Financial Guide serves as a reference manual
assisting award recipients in their fiduciary responsibility to safeguard grant funds and
ensure that funds are used appropriately and within the terms and conditions of the award.


                                             2
     •   Grant Expenditures to determine the accuracy and allowability of
         costs charged to the grant.

     •   Budget Management and Control to determine the amounts
         budgeted and the actual costs for each approved cost category and
         to determine if the grantee deviated from the approved budget, and
         if so, if the grantee received the necessary approval.

     •   Financial Status and Progress Reports to determine if the
         required reports were submitted on time and accurately reflected
         grant activity.

     •   Accomplishment of Grant Requirements and Objectives to
         determine whether the grantee met or is capable of meeting the
         grant objectives and whether the grantee collected data and
         developed performance measures to assess accomplishment of the
         intended objectives.

     •   Monitoring of Contractors to determine if contractors were used
         and if so, to assess compliance with laws, regulations, or guidelines
         that require contractor monitoring by the grantee.

      We also performed limited work and confirmed that the LAWO did not
generate or receive program income, did not purchase any property with
grant funds, and was not required to contribute any local matching funds.
We therefore performed no testing in these areas.




                                      3
              FINDINGS AND RECOMMENDATIONS

     We determined that the LAWO was accomplishing and making
     adequate progress in fulfilling the objectives of the grant.
     However, our audit revealed several internal control weaknesses
     and accounting issues at Advocates for Basic Legal Equality,
     Incorporated (ABLE), the affiliate that provided accounting and
     other financial services for the grantee. We found that ABLE did
     not promptly post adjusting journal entries to record payroll
     costs in the grant ledgers, failed to timely perform and approve
     bank reconciliations, and did not take follow-up action on
     outstanding checks. In addition, LAWO’s Financial Status
     Reports (FSR) did not reconcile to the official accounting records;
     however, ABLE maintained summary spreadsheets and
     documentation that supported expenditures listed on the FSRs it
     filed on behalf of LAWO. Therefore, it appears LAWO did not
     adequately monitor its affiliate and relied upon ABLE to perform
     its duties in accordance with stated policies and procedures.

Operational and Administrative Structure

       The Executive Director of LAWO who is located in Toledo, Ohio,
monitored the operational and financial aspects of LAWO and signed checks
over a specific dollar amount. LAWO also designated an employee as the
Regional Domestic Violence Coordinator who stated that her role was to
ensure that the grant objectives were being met and to oversee the
contractors and subgrantees. This individual was budgeted in the grant as a
full-time position devoted to grant-related activities.

      The LAWO entered into an operating agreement with ABLE to provide
administrative services, including accounting, finance, human resources,
information management, and resource development. ABLE personnel
maintained the official accounting records for the project and summary
spreadsheets for the grant, tracked the grant budget, compiled and
processed invoices to support drawdown requests, requested drawdowns of
funds from OJP, performed the bank reconciliations, and prepared and
submitted the Financial Status Reports. In addition, ABLE coordinated with
LAWO to prepare the categorical assistance progress reports.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to accurately
account for funds awarded to them. The recipient is also responsible for


                                     4
ensuring that an adequate system of accounting and internal controls exists
for each of its sub-recipients.

       We reviewed LAWO’s and ABLE’s most recent Single Audit Reports to
determine whether there were any material weaknesses that could affect the
grant. We also interviewed ABLE employees responsible for areas such as
payroll, purchasing, and accounts payable, and we observed accounting
activities to further assess risk. We found that staff included experienced
and qualified personnel, there was active communication among staff and
management, the organization experienced relatively low turnover, financial
duties were properly segregated, and the operating procedures were
formally documented. Based on our observations and information obtained,
we concluded that ABLE’s control environment was generally adequate.
However, we identified weaknesses related to the staff’s adherence to
prescribed procedures as related to the timeliness and review of bank
reconciliations, follow-up on outstanding checks, and the posting, review,
and approval of journal entries. These deficiencies are detailed in the
sections below.

Single Audit

      According to OMB Circular A-133 (codified at 28 CFR Parts 66 and 70),
recipients of federal funds are required to perform a Single Audit annually if
they expend more than $500,000 in federal funds in any year. 28 CFR
Parts 66 and 70 also require that Single Audits be completed no more than
9 months after the end of the fiscal year (FY). LAWO’s FY ends on
December 31 and we found that the FY 2009 Single Audit report was issued
timely in April 2010.

       We reviewed the FY 2008 and FY 2009 Single Audit reports and found
that LAWO complied with the requirements of the laws, regulations,
contracts, and grants that were applicable to each of its major federal
programs during the audit periods. Moreover, the Single Audit report did
not identify any material internal control deficiencies. Additionally, because
it performs the accounting functions for LAWO, we also reviewed ABLE’s
2009 Single Audit report and there were no relevant findings in that report.

Financial Management System

      ABLE’s accounting system segments the chart of accounts by Grantor
and office location and had the ability to track LAWO’s expenditures and the
receipt of grant funds by grant program. In addition, ABLE maintained
summary spreadsheets to track the actual program expenditures chargeable
to the grant. An ABLE official explained that LAWO staff recorded their time



                                       5
worked on each grant into a case management system, and this information
was subsequently entered into the payroll system. Then, because the
systems were not integrated, payroll expenses related to the grant were
manually calculated based on the percentage of time employees worked on
the grant and the totals were then transferred from the general payroll
expense account to the appropriate grant ledger accounts via journal
entries. The official further stated that LAWO recognizes that the best
accounting practice is to record the payroll expense in the general and
individual grant ledgers contemporaneously with the payment of each
payroll. However, limited administrative staff and software resources have
prevented ABLE from implementing this practice. At the time of our review,
LAWO was working with payroll service providers to design and implement a
more integrated payroll general ledger system.

Accounting Records

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, and non-federal matching contributions.

      We found that the format of the grant ledgers complied with federal
guidelines including specific identification of transactions and categories and
included ledgers for all costs related to the rural domestic violence project,
not just those chargeable to the grant. However, we determined that ABLE
was not always prompt in posting the adjusting journal entries to transfer
payroll expenditures from the general ledger to the grant ledgers.
Moreover, these adjusting journal entries were not always reviewed and
approved by management on a timely basis. For example, attorney salary
charges for all of 2008, which totaled $176,531, were entered into the grant
ledger via a single journal entry made on December 31, 2008. Further,
according to ABLE and LAWO’s payroll procedures, journal entries are to be
approved by the Chief Financial Officer (CFO) prior to execution. However,
there was no evidence that the CFO ever reviewed or approved this
transaction.

       Although the grant ledgers were not current and included project costs
not chargeable to the grant, ABLE maintained summary spreadsheets that
reflected the actual costs chargeable to the grant. These summary
spreadsheets, created from invoices and the payroll allocation calculations
for this grant, showed expenditures for the period and cumulatively by
budget category. The detailed documents supporting the summary



                                       6
spreadsheets included the time records showing the percentage of time each
individual worked on the grant, the calculations for the percentage of each
person’s salary and fringe benefits chargeable to the grant, and information
about other grant-related expenses incurred, such as invoices from
contractors and travel costs. Copies of the spreadsheet and detailed support
were attached to a monthly invoice that was submitted to LAWO for review
and certification prior to requesting reimbursement from OJP. We compared
the information shown on the spreadsheets to the totals calculated from the
supporting documentation and determined that the summary spreadsheets
accurately reflected grant expenditures through September 30, 2010. ABLE
prepared LAWO’s requests for reimbursement and the Financial Status
Reports based on information contained in these summary spreadsheets.

Bank Reconciliations

      According to ABLE and LAWO’s fiscal policies and procedures, all bank
statements must be reconciled monthly within 30 days of receipt. The
Controller or Assistant Controller is to perform the bank reconciliation and
provide it to the CFO for review and verification of accuracy. The CFO
should then initial and date the reconciliation. Further, checks that have
been outstanding in excess of 120 days should be voided and written off.
We believe that these procedures, when implemented, constitute a good
internal control.

      We reviewed two monthly bank reconciliations and noted they had not
been performed in a timely manner. Specifically, we found that the bank
statements dated January 31, 2009, and January 31, 2010, were not
reconciled until May 4, 2009, and April 26, 2010, respectively. Although we
did not notice any unusual withdrawals or re-deposits on these bank
statements, we found that ABLE had not followed up on 47 outstanding
checks that were more than 120 days old. Some checks were outstanding
for more than 2 years.

      We discussed our observations with ABLE Accounting Department
personnel who explained that LAWO’s checks are void after 90 days.
Additionally, we obtained a copy of a check and noted that this statement
was imprinted on its face. The official acknowledged that they were behind
in voiding and writing off the checks in the records and planned to make the
necessary entries. We recommend that LAWO develop and implement
procedures to ensure that the bank reconciliations performed by ABLE are
performed and reviewed timely and appropriate action is taken on
outstanding checks.




                                      7
Grant Drawdowns

      The OJP Financial Guide establishes methods under which the
awarding agency makes payments to grantees. The methods and
procedures for payment established by the federal government are designed
to minimize the time elapsed between the transfer of funds by the
government and the disbursement of funds by the grantee. Recipients
should time drawdown requests to ensure that federal cash on hand is the
minimum needed to pay for actual or anticipated costs within 10 days.

     OVW awarded $1,589,352 for grant number 2007-WR-AX-0031 with
one supplement, and LAWO had drawn down a total of $1,045,232 as of
September 30, 2010. Based on interviews with ABLE personnel, we
determined that drawdowns were requested on a reimbursement basis and
were based upon the summary spreadsheets, which included both non-
personnel and personnel expenditures.

       We compared drawdowns to grant expenditures as recorded in the
summary spreadsheets through September 30, 2010, and determined that
grant drawdowns coincided with expenditures and were requested after the
funds had been expended. Therefore, LAWO did not have excess cash on
hand and drawdowns were in accordance with the OJP Financial Guide.
Table 3 illustrates our comparison of grant drawdowns and expenditures by
calendar quarter for the quarters ending March 31, 2009, through
September 30, 2010. As shown in the table below, there is a $19,090
difference in the last quarter. This occurred because the grantee had not
requested reimbursement for these expenses as of September 30, 2010.

          Table 3. Comparison of Grant Drawdowns to Expenditures
                                                                             REIMBURSEMENTS
    CALENDAR QUARTER   QUARTERLY AMOUNT DRAWN       GRANT EXPENDITURES PER     IN EXCESS OF
       ENDING DATE          DOWN PER OJP            SUMMARY SPREADSHEETS      EXPENDITURES
        03/31/09                $ 95,273                  $ 95,273                  $0
        06/30/09                  90,159                   90,159                    0
        09/30/09                 110,645                  110,645                    0
        12/31/09                 123,568                  123,568                    0
        03/31/10                  45,463                   45,463                    0
        06/30/10                  65,449                   65,449                    0
        09/30/10                  44,967                   64,057                (19,090)
 Source: Office of Justice Programs and LAWO records




                                                8
Grant Expenditures

      The OJP Financial Guide serves as a reference manual assisting award
recipients in their fiduciary responsibility to safeguard grant funds and
ensure that funds are used appropriately and within the terms and
conditions of the award. By accepting the OVW award and in accordance
with special condition number one of the grant award, LAWO agreed to
comply with the financial and administrative requirements as set forth in the
current edition of the OJP Financial Guide.

      To determine the accuracy and allowability of costs charged to the
grant, we reviewed a sample of personnel and non-personnel expenditures
such as travel, supplies, and contractor expenses that were paid with grant
funds. We also examined a sample of salary and fringe benefit costs
charged to the grant. In total, we reviewed $573,561, or approximately
54 percent of the amount expended through the end of September 2010.5
Because the summary spreadsheets did not contain the expenditure details,
we used the grant ledgers to select our sample. Our results are detailed
below.

Personnel

       Personnel costs represented the largest category of grant expenditures
incurred by LAWO. The personnel costs LAWO charged to the grant
consisted of salaries and fringe benefits for the attorneys and paralegals who
provided legal assistance to project clients. According to the grant ledgers,
the LAWO expended a total of $605,229 for the salaries and fringe benefits
for attorneys and paralegals working on the Rural Domestic Violence project.
However, per the summary spreadsheets, only $570,793 was charged to the
grant through September 30, 2010.

       We judgmentally selected and examined payroll expenditures totaling
$330,722 and this included six non-consecutive pay periods and several
adjusting journal entries. We reviewed these expenditures to determine
whether costs charged to the grant for wages and fringe benefits were
accurately computed, properly allocated to the grant, and adequately
supported. We reviewed time records, detailed payroll records, invoices and
detailed support. Each staff member was responsible for recording in
LAWO’s case management system the hours they worked on each grant and
this formed the basis of the payroll expense invoiced to the grant. We were
told that ABLE’s Controller analyzed the time reported by each staff member

      5
         LAWO did not charge all costs recorded in the program ledger to the grant. We
reviewed four transactions totaling $6,568 that were not charged to the grant. The
remaining transactions tested were either partially or fully charged to the grant.


                                            9
in the case management system and calculated the personnel costs allocated
to the grant for each individual. In general, we found the payroll
expenditures to be accurately recorded, properly allocated to the grant, and
adequately supported.

Non-Personnel Expenditures

      We reviewed 35 non-personnel transactions totaling $242,839 to
determine if the expenditures were adequately supported, correctly
authorized, appropriately classified, and properly charged to the grant, when
appropriate. These transactions consisted of payments for items such as
supplies, travel, and contractor expenses. We compared the transactions to
the OJP-approved budget and traced the transactions to supporting
documents. Based on our review, we determined that the expenditures
were properly supported, authorized, classified, accurately recorded in
program ledgers, and charged to the grant, when appropriate.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. We determined
whether the budgets were adhered to by comparing the actual amounts
charged to each budget category to the OJP-approved budgets.

     ABLE’s Controller monitored the grant budget to ensure that overall
spending was within the grant budget by spending category. This was done
by maintaining cumulative totals on the summary spreadsheets.

      We compared the OJP-approved grant budgets against the
expenditures shown on the summary spreadsheets. As illustrated in
Table 4, we found that expenditures in almost all categories were less than
the budgeted amounts except for supplies, which exceeded the approved
budget level by $9,496. As the over-expenditure in this category was less
than 10 percent of the total amount awarded, LAWO did not exceed the
allowable transfer amount and, therefore, was not required to request
approval to use the funds in this manner.




                                     10
              TABLE 4. LAWO BUDGET MANAGEMENT AND CONTROL
                                                               EXPENDITURES
                  REVISED
                                                               PER SUMMARY    AMOUNT IN
                 ORIGINAL                                      SPREADSHEETS   EXCESS OF
     COST         GRANT       SUPPLEMENTAL       COMBINED        THROUGH      CATEGORY
                          6
   CATEGORY      BUDGET       GRANT BUDGET      TOTAL BUDGET     9/30/10       BUDGET

  Personnel      $325,118       $250,639         $575,757        $473,287        $0
    Fringe
   Benefits       97,550         65,988           163,538         97,506         0

    Travel        30,384         26,939           57,323          42,727         0

  Equipment         0               0                0              0            0

   Supplies       21,737         12,380           34,117          43,613       9,496

 Construction       0               0                0              0            0

   Contract      302,130        256,770           558,900        307,034         0

    Other         25,528         18,882           44,410          16,233         0
 TOTAL DIRECT
    COSTS        $802,447       $631,598        $1,434,045       $980,400        NA
   Indirect
    Costs         86,905         68,402           155,307         83,923         0
   TOTAL        $889,352       $700,000         $1,589,352     $1,064,323

Source: Office of Justice Programs and LAWO accounting records

Indirect Costs

       The OJP Financial Guide states that indirect costs are costs that are
not readily assignable to a particular project, but are necessary to the
operation of the organization and the performance of the project. Indirect
costs are calculated as a percentage of direct costs. We determined that the
LAWO had a federally approved final indirect cost rate of 10.83 percent from
the Social Security Administration for 2006 and were allowed to use this rate
until the Department of Justice approved a new rate. On October 19, 2010,
they received from the Department of Justice a final indirect cost rate of
10.84 percent for 2008 and allowed a provisional rate of 10.84 percent
through December 31, 2010, for 2009 and 2010. We tested a sample of
indirect costs charged to the grant and found that the costs had been
accurately calculated.




      6
         We used budget amounts from Grant Adjustment Notice number 5, which changed
some of the original grant budget amounts.


                                           11
Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Financial Status Reports (FSR) provide
information on monies spent and the unobligated amounts remaining in the
grant. 7 Program progress reports provide the OVW with information
relevant to the performance of the project and other pertinent data.

Financial Status Reports

      The 2008 OJP Financial Guide stated that FSRs were due within
45 days after the end of the calendar quarter. The OJP Financial Guide was
subsequently revised and, effective for the quarter beginning October 1,
2009, grantees were required to report expenditures on-line, using the
Federal Financial Report (FFR) form, no later than 30 days after the end of
the calendar quarter. As shown in Table 5, we reviewed six reports and
determined that except for one report that was 2 days late, due to OJP
transmission problems, the FSRs were submitted on time.

             TABLE 5. TIMELINESS OF LAWO FINANCIAL STATUS REPORTS
                    REPORT PERIOD                FSR                                 DAYS
    NO.            FROM - TO DATES             DUE DATES        DATE SUBMITTED       LATE
     1           04/01/09   –   06/30/09       08/14/09             08/12/09           0
     2           07/01/09   –   09/30/09       11/14/09             11/09/09           0
     3           10/01/09   –   12/31/09       01/30/10             01/29/10           0
     4           01/01/10   –   03/31/10       04/30/10             05/02/10           2
     5           04/01/10   –   06/30/10       07/30/10             07/30/10           0
     6           07/01/10   –   09/30/10       10/30/10             10/25/10           0
 Source: Office of Justice Programs

       As mentioned previously, ABLE did not make adjusting journal entries
in a timely manner and the grant ledgers included other project costs not
charged to the grant. As a result, the grant general ledger could not be
reconciled to the financial reports. However, as shown in Table 6 we were
generally able to confirm the accuracy of the FSRS against the summary
spreadsheets. We identified one transaction that ABLE omitted from the
reported expenditure total in the quarter ended June 30, 2010, but reported
in the subsequent report for the quarter ended September 30, 2010.




         7
        The grantee filed FSRs to report its grant expenditures until the last quarter of
2009 when the FSRs were replaced with Federal Financial Reports.


                                             12
TABLE 6. COMPARISON OF LAWO’s SUMMARY SPREADSHEET DATA TO FSRs
                       EXPENDITURES PER
    REPORT PERIOD       GRANT SUMMARY         GRANT EXPENDITURES
       ENDED             SPREADSHEET               PER FSR         DIFFERENCE
         06/30/09         $ 90,159               $ 90,159          $        0
         09/30/09          110,645                110,645                   0
         12/31/09          123,568                123,568                   0
         03/31/10              45,463              45,463                   0
         06/30/10              65,450              64,243              1,207
         09/30/10              64,058              65,265           (1,207)
  Source: Office of Justice Programs and LAWO records

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually on January 30 and July 30 for the life of the
grant. We reviewed three recently filed progress reports and determined
that the grantee submitted them in a timely manner except for the June 30,
2009, report that was filed 1 day late, as seen in Table 7. In addition, the
data in the three reports that the grantee submitted was supported by
documentation about the grant-funded activities.

TABLE 7. TIMELINESS OF CATEGORICAL ASSISTANCE PROGRESS REPORTS
              REPORT PERIOD
   NO.       FROM - TO DATES       DUE DATE       DATE SUBMITTED   DAYS LATE
    1      01/01/09 – 06/30/09     07/30/09         07/31/09            1
    2      07/01/09 – 12/31/09     01/30/10         01/30/10            0
    3      01/01/10 – 06/30/10     07/30/10         07/30/10            0
  Source: Office of Justice Programs

Compliance with Grant Requirements

      We conducted interviews with grantee officials and obtained and
reviewed documentation regarding the grantee’s compliance with grant
requirements and the special conditions of the grant award. Based on our
review of the documents provided, we found that the grantee generally
complied with the requirements of the grant, except as noted in the
Accounting and Internal Controls section of the report.




                                          13
Program Performance and Accomplishment

       According to award documentation, the goals of the grant were to:
(1) strengthen the collaboration and advocacy at the Family Justice Center
(FJC) of Northwest Ohio; (2) develop faith-based initiatives for the FJC;
(3) maintain critical legal services in 11 rural counties in collaboration with
holistic services provided by victim advocates; and (4) strengthen
collaboration in 15 non-FJC rural counties for a more effective coordinated
community response to domestic violence, stalking, and sexual assault.

       The objectives needed to achieve the grant goals were to: (1) conduct
annual training for FJC partners to create a multi-county advocate network
to strengthen the collaboration and support among advocates and create
on-site survivor centers with activities to build a survivor support network;
(2) establish a long-term partnership with churches and other faith-based
programs to help victims obtain emergency funds, provide chaplain services,
and provide volunteers to assist with holistic support programs such as
micro-economic enterprises, financial management programs, trauma
recovery groups, peer support initiatives, and healing activities; (3) develop
a holistic screening process and protocols through legal aid partnership with
community advocacy agencies and outreach to migrant/immigrant victims
through legal aid partnership with community advocacy agencies; and
(4) attend national training classes and the Ohio Domestic Violence Network
training to learn model programs, protocols, and practices; train partner
agencies in 21 rural counties on model programs, protocols, and practices;
and strengthen collaborative relationships in the 15 non-FJC counties.

        To determine if LAWO met the objectives of the grant, we interviewed
grantee officials and several sub-grantee representatives and toured an FJC
facility. Further, we identified and interviewed end users benefiting from the
program, determined that the grantee implemented training efforts, and that
the grantee maintained newspaper articles illustrating the impact of the
project has had on the community. Based on our observations, interviews,
and documentation reviewed, we were able to corroborate that the services
being provided were aligned with grant goals.

Monitoring Subgrantees and Contractors

      According to the 2008 and 2009 OJP Financial Guides, grantees should
ensure that they monitor subrecipients and organizations under contract to
them in a manner that will ensure compliance with their own overall financial
management and program requirements. We interviewed LAWO’s grant
administrator and reviewed the memoranda of understanding (MOU)
provided by the grantee and determined that there were 7 contractors and



                                       14
11 subgrantees paid with grant funds. All seven of the contractors and six
of the subgrantees provided services and support to victims of domestic
violence, sexual assault, stalking, and child abuse; four of the subgrantees
were individuals who shared the faith-based coordinator duties and one
subgrantee was an individual who was designated as the chaplaincy/retreat
coordinator. ABLE’s CFO explained that the grantee did not conduct a formal
financial management system evaluation of the subgrantees’ financial
management systems prior to making the award, as the subgrantees were
identified in the grant application and were approved by DOJ. Further,
LAWO had prior experience with the high level of professionalism by the
subgrantees on other grants. All the subgrantee agreements required that
their invoices be supported by detailed supporting documents and certified
by each subgrantee’s Executive Director. Based on these operating
procedures, LAWO did not believe it was necessary to conduct a financial
system evaluation. We found that LAWO had an MOU with each of the
subgrantees. The MOU detailed the activities to be performed, a time
schedule, the dollar amount of the agreement, and other policies and
procedures to be followed.

       Additionally, we determined that LAWO as the lead agency for this
project had a Regional Domestic Violence Coordinator who monitored
subgrantee and contractor performance through on-site visits, joint
trainings, and monthly executive meetings to review performance against
milestones and to discuss any related issues. Based on this, we believe that
LAWO's monitoring of subgrantee and contractor activities was adequate.

      However, we also determined that subgrantees were responsible for
approving expenditures and the MOUs specify that subgrantees were to
submit their billings directly to LAWO’s fiscal agent, an ABLE employee.
There was no evidence that LAWO reviewed subgrantee and contractor
invoices to ensure actual charges were allowable and reasonable before the
invoices were processed for payment by ABLE. During the exit conference,
we discussed the apparent lack of review with LAWO and ABLE officials. The
Regional Domestic Violence Coordinator explained that she is fully aware of
the program costs being incurred at the locations in her area. She notifies
ABLE that these expenditure have her approval via emails. Although LAWO
never sees the invoices for the subgrantees and subcontractors at other
program locations, most of these charges were for personnel costs which
were supported by time records submitted to ABLE.




                                     15
Views of Responsible Officials

      We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference. Their comments on
specific issues have been included in the appropriate sections of the report.

Recommendations

We recommend that OVW:

1.    Ensure that LAWO develops and implements procedures to ensure that
      the bank reconciliations performed by ABLE are performed and
      reviewed timely and appropriate action is taken on outstanding
      checks.

2.    Require LAWO to increase its monitoring of ABLE’s accounting
      operations done on its behalf, and implement procedures to ensure
      ABLE records all grant-related financial activity in the appropriate
      grant accounting records on a timely basis.




                                      16
                                                                          APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of this grant audit was to determine whether
reimbursements claimed for costs under the grant were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant, and to determine
program performance and accomplishments. The objective of our audit
was to review performance in the following areas: (1) internal control
environment; (2) drawdowns; (3) grant expenditures, including personnel
costs and indirect costs; (4) budget management and control;
(5) matching costs; (6) property management; (7) program income;
(8) financial status and progress reports; (9) grant requirements;
(10) program performance and accomplishments; and (11) monitoring of
contractors and subgrantees. However, we determined that matching
costs, property management, and program income were not applicable to
this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the grant
project start date on September 1, 2007, through September 30, 2010.
The LAWO incurred grant-related costs totaling $1,064,323 and was
reimbursed $1,045,232 through September 30, 2010.

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents. In conducting our audit, we employed a
judgmental sampling design to obtain broad exposure to numerous facets of
the grant reviewed, such as dollar amounts or expenditure category. This
non-statistical sample design does not allow projection of the test results to
the universes from which the samples were selected. Our sample was
selected from the detailed grant program ledgers and amounted to $573,561
of the $1,064,323 expended through September 30, 2010. 8


      8
          LAWO did not charge all of the program costs to the grant. We reviewed four
transactions totaling $6,568 that were not charged to the grant. The remaining
transactions tested were either partially or fully charged to the grant.


                                           17
       In addition, we reviewed the timeliness and accuracy of FSRs and
Progress Reports, assessed performance against grant objectives, and
evaluated the grantee’s monitoring of its contractors. However, we did not
test the reliability of the financial management system as a whole. We did
not rely on computer based data and it was not significant to our audit
objectives.

        As part of our grant audit procedures, we evaluated prior audits of
LAWO and ABLE that were performed in the past 2 years. The grantee and
its affiliate were both audited in 2009 by independent Certified Public
Accountants and the results of these audits were reported in the Single Audit
Reports that accompanied the Comprehensive Annual Financial Reports for
the year ended December 31, 2009. The Single Audit Reports were
prepared under the provisions of Office of Management and Budget
Circular A-133. In reviewing the independent auditors’ assessments, we
determined that there were no control weaknesses or significant
noncompliance issues related to the grantee, its affiliate, or LAWO’s
management of federal programs.




                                     18
                                                                                 APPENDIX II
                                AUDITEE RESPONSE


                     October 18, 2011
  Legal Aid of
Western Ohio, Inc. Carol Taraszka
                     Regional Audit Manager
                     U.S. Department of Justice
                     Office of the Inspector General
Center for           Chicago Regional Audit Office
Equal Justice        500 West Madison Street, Suite 1121
525 Jefferson        Chicago, IL 60661-2590
Avenue
Suite 400            Re:    Draft Audit Report
Toledo, Ohio 43604          Legal Aid of Western Ohio, Inc.
                            Office on Violence Against Women Grant
(419) 724·0030
(877) 894-4599       Dear Ms. Taraszka:
(419) 321·1582 fax
(888) 554·7415 TTY          I have received and reviewed the draft audit report on the Audit of the
www.lawolaw.org      Office on Violence Against Women Grant awarded to Legal Aid of Western
                     Ohio, Inc. (LAWO) (grant number 2007-WR-AX-003J). I have the following
                     comments on the draft audit report:

                             1.       I accept and have taken steps to address the recommendations
                     found on page 16 of the draft report. I attach to this letter a memorandum to the
                     Executive Director and Chief Financial Officer of Advocates for Basic Legal
                     Equality, Inc. regarding measures I have asked them to implement to comply with
                     those recommendations.

                             2.      The draft report states in the last paragraph on page iii that certain
                     internal control items listed earlier on the page and “other deficiencies” are
                     discussed in detail in the report. I request that the phrase “other deficiencies” be
                     deleted from the final report as I believe that the three items listed earlier on the
                     page constitute the deficiencies found during the audit.

                             3.      I note that the draft report on page 5 states that the assessment
LAWO is funded       “found that staff included experienced and qualified personnel, there was active
in part by:
                     communication among staff and management, the organization experienced
                     relatively low turnover, financial duties were properly segregated, and the
LSC                  operating procedures were formally documented” and that “ABLE·s control
                     environment was generally adequate”.
United Way
Community Partner          4.       As noted all page 6 of the draft report, LAWO and ABLE are
                     working to design and implement a more integrated payroll general ledger system

                                               19
Carol Taraszka
October 18, 2011
Page Two

that will address the issue of the timeliness of entries onto the individual grant
ledgers.

        5.      The two bank statements that the report noted were reviewed for
reconciliation were both from January – one in 2009 and one in 2010. The
reconciliation of those statements was delayed because the financial team was
working to prepare for the outside audit. The team caught up on the
reconciliation process after the audit preparation was completed. I nonetheless
recognize the importance of remaining current with bank statement
reconciliations despite an on-going audit process and have taken steps to address
that issue with ABLE.

         6.     The draft report concluded that the services being provided under
the grant “were aligned with grant goals” (page 14). We are proud of the work
being done, in a multi-county rural environment, to ensure communities have a
coordinated response to domestic violence and that survivors of domestic
violence, sexual assault, and stalking have access to civil legal aid and other
critically needed services. The work being done by LAWO and its numerous
community partners around the Family Justice Center of Northwest Ohio is
recognized nationally as an effective project and resource for survivors.

       Thank you for the opportunity to comment on the draft report. Please let
me know if you have any questions about these comments, or need additional
information.

Sincerely,

/S/

Kevin C. Mulder
Executive Director

cc: U.S. Department of Justice, Office on Violence Against Women
    Joseph R. Tafelski, Executive Director, ABLE
    R. Paul, Chief Financial Officer, ABLE

Enc.




                          20
                     MEMORANDUM

                     To:          Joseph R. Tafelski, Executive Director
  Legal Aid of                    R. Paul Saggese, Chief Financial Officer
Western Ohio, Inc.
                                  Advocates for Basic Legal Equality, Inc.

                     From:       Kevin C. Mulder, Executive Director
                                 Legal Aid of Western Ohio, Inc.
Center for
Equal Justice        Re:          Draft Audit Report
525 Jefferson                     United States Department of Justice
Avenue                            Office of the Inspector General
Suite 400
Toledo, Ohio 43604   Date:        October 27, 2011

(419) 724·0030
(877) 894-4599       I write to confirm our discussions regarding the draft report of the audit conducted
(419) 321·1582 fax   of Legal Aid of Western Ohio’s Office on Violence Against Women Grant (grant
(888) 554·7415 TTY   number 2007-WR-AX-0031 ). I have provided each of you with a copy of the
www.lawolaw.org      report and we have discussed the report’s Findings and Recommendations. I
                     accept and agree with the recommendations found on page 16 of the draft report.

                     I greatly appreciate the high quality administrative services that ABLE provides
                     LAWO, especially in the area of financial management. I also understand that the
                     beginning of the year may pose some timing issues for the finance department
                     arising out of the need to prepare for the annual audit while maintaining regular
                     department functions. At the same time, it is very important that we reconcile our
                     bank statements in a timely manner.

                     To comply with the recommendations in the audit report, I am requesting that you
                     implement the following measures us soon as possible:

                             1.      No later than thirty (30) days after receipt of a bank statement,
                     present for my review and signature reconciliations of any and all statements from
                     LAWO bank accounts. The reconciliations should be initialed and dated by
LAWO is funded       appropriate members of the finance team in accordance with LAWO’s Fiscal
in part by:          Policies and Procedures.

LSC                         2.      Present along with the bank reconciliations a list of any
                     outstanding checks, with particular note of any checks that have been outstanding
United Way           for more than 90 days
Community Partner
                            3.       On a quarterly basis, record all grant-related financial activity in
                     the appropriate grant accounting records. All grant ledgers should be current on



                                               21
at least a quarterly basis. I will schedule quarterly meetings, to be held within 30
days of the end of a quarter, to review the grant accounts.

Please consider these measures to be a part of and incorporated into the Operating
Agreement between Legal Aid of Western Ohio, Inc. and Advocates for Basic
Legal Equality, Inc.

Please let me know if you have any questions about these measures.




                          22
                                                                             APPENDIX III
        OFFICE ON VIOLENCE AGAINST WOMEN RESPONSE

                                                    U.S. Department of Justice

                                                    Office on Violence Against Women




                                                    Washington, D.C. 20531

MEMORANDUM

TO:                   Carol S. Taraszka
                      Regional Audit Manager
                      Chicago Regional Audit Office

FROM:                 Susan B. Carbon
                      Director
                      Office on Violence Against Women

                      Rodney Samuels
                      Audit Liaison
                      Office on Violence Against Women

SUBJECT:              Audit of the Office on Violence Against Women Grant Awarded to
                      Legal Aid of Western Ohio, Toledo, Ohio

This memorandum is in response to your correspondence dated September 30, 2011
transmitting the above draft audit report for Legal Aid of Western Ohio (LAWO). We consider
the subject report resolved and request written acceptance of this action from your office.

The report contains two recommendations and no questioned costs. The Office on Violence
Against Women (OVW) agrees with the recommendations and is committed to working with
the grantee to address each item and bring them to a close as quickly as possible. The following
is an analysis of the audit recommendations:

   1.      Ensure that LAWO develops and implements procedures to ensure that the
           bank reconciliations performed by ABLE are performed and reviewed timely
           and appropriate action is taken on outstanding checks.

           We agree with this recommendation. We will coordinate with LAWO to be certain
           that they develop and implement procedures to ensure that the bank reconciliations
           performed by ABLE are performed and reviewed timely and appropriate action is
           taken on outstanding checks.


                                               23
      2.      Require LAWO to increase its monitoring of ABLE's accounting operations
              done on its behalf, and implement procedures to ensure ABLE records all
              grant-related financial activity in the appropriate grant accounting records on
              a timely basis.

              We agree with this recommendation. We will require LAWO to increase its
              monitoring of ABLE's accounting operations done on its behalf, and implement
              procedures to ensure ABLE records all grant-related financial activity in the
              appropriate grant accounting records on a timely basis.


We appreciate the opportunity to review and comment on the draft report. We will continue to
work with LAWO to address each recommendation. If you have any questions or require
additional information, please contact Rodney Samuels of my staff at (202) 514-9820.

cc:        Richard Theis
           Assistance Director
           Audit Liaison Group
           Justice Management Division

           Angela Wood
           Budget Officer
           Office on Violence Against Women

           Debra Bright
           Program Specialist
           Office on Violence Against Women




                                                 2



                                                24
                                                             APPENDIX IV
              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to Legal Aid of Western
Ohio, Incorporated (LAWO) and the Office on Violence Against Women
(OVW). LAWO’s response is incorporated in Appendix II of this final report,
and OVW’s response is incorporated as Appendix III. The following provides
the OIG analysis of the responses and summary of actions necessary to
close the report.

Recommendation Number

  1. Resolved. OVW concurred with our recommendation to ensure that
     LAWO develops and implements procedures to ensure that bank
     reconciliations performed by ABLE are performed and reviewed timely
     and appropriate action is taken on outstanding checks. OVW stated in
     its response that it will coordinate with LAWO to be certain they
     develop and implement these procedures. In its response, LAWO
     stated that no later than 30 days after the receipt of the bank
     statements the Executive Director will be presented with the
     completed bank statement reconciliation for his review. The
     reconciliation will be initialed and dated by the appropriate members of
     the finance team who performed the bank reconciliation. In addition
     to the bank reconciliation the Executive Director shall be presented
     with a list of any outstanding checks, with particular note of any
     checks outstanding for more than 90 days.

     This recommendation can be closed when we receive evidence that
     LAWO has developed and implemented procedures to ensure that the
     bank reconciliations performed by ABLE are performed and reviewed
     timely and appropriate action is being taken on outstanding checks.

  2. Resolved. OVW concurred with our recommendation to require
     LAWO to increase its monitoring of ABLE’s accounting operations done
     on its behalf and implement procedures to ensure ABLE records all
     grant-related financial activity in the appropriate grant accounting
     records on a timely basis. OVW stated in its response that it will
     require LAWO to increase its monitoring of ABLE’s accounting
     operations done on its behalf and implement procedures to ensure
     ABLE records all grant-related financial activity in the appropriate
     grant accounting records on a timely basis. In its response, LAWO


                                    25
required ABLE to record all grant-related financial activity in the
appropriate grant accounting records and requested that all grant
ledgers should be current on a quarterly basis. LAWO’s Executive
Director planned to schedule quarterly meetings, within 30 days of the
end of the quarter, to review the grant accounts.

This recommendation can be closed when we receive evidence that
LAWO has increased it monitoring of ABLE’s accounting operations and
implemented procedures to ensure ABLE records all grant-related
financial activity in the appropriate grant accounting records on a
timely basis.




                               26
